No. ___________

In the
Supreme Court of the United States
NATIONAL ASSOCIATION OF BROADCASTERS, ET AL.,
Applicants,
v.
PROMETHEUS RADIO PROJECT, ET AL.,
Respondents.
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

Eve Klindera Reed
Jeremy J. Broggi
WILEY REIN LLP
1776 K St., N.W.
Washington, D.C. 20036
(202) 719-7000
ereed@wileyrein.com
jbroggi@wileyrein.com
Counsel for Nexstar
Broadcasting, Inc.

Kevin F. King
Andrew Soukup
Rafael Reyneri
COVINGTON &
BURLING LLP
850 10th St., N.W.
Washington, D.C. 20001
(202) 662-6000
kking@cov.com
asoukup@cov.com
rreyneri@cov.com
Counsel for News Media
Alliance and Fox
Corporation

Helgi C. Walker
Counsel of Record
Jacob T. Spencer
GIBSON, DUNN & CRUTCHER LLP
1050 Connecticut Ave., N.W.
Washington, D.C. 20036
(202) 955-8500
hwalker@gibsondunn.com
jspencer@gibsondunn.com
Counsel for National Association
of Broadcasters

(additional counsel listed on next page)

David D. Oxenford
Wilkinson Barker Knauer, LLP
1800 M Street, N.W.
Suite 800N
Washington, D.C. 20036
(202) 783-4141
doxenford@wbklaw.com
Counsel for Connoisseur Media LLC

Jeetander T. Dulani
Pillsbury Winthrop Shaw Pittman LLP
1200 17th St., N.W.
Washington, D.C. 20036
(202) 663-8000
jeetander.dulani@pillsburylaw.com
Counsel for Sinclair Broadcast Group
Inc.

Kenneth E. Satten
Craig E. Gilmore
Wilkinson Barker Knauer, LLP
1800 M Street, N.W.
Suite 800N
Washington, D.C. 20036
(202) 783-4141
ksatten@wbklaw.com
cgilmore@wbklaw.com

Sally A. Buckman
Paul A. Cicelski
Lerman Senter PLLC
2001 L St., N.W.
Suite 400
Washington, D.C. 20036
(202) 429-8970
sbuckman@lermansenter.com
pcicelski@lermansenter.com
Counsel for News Corporation

Counsel for Bonneville International
Corporation and The Scranton Times
L.P.

APPLICATION FOR AN EXTENSION OF TIME
TO THE HONORABLE SAMUEL A. ALITO, JR., ASSOCIATE JUSTICE OF THE
SUPREME COURT OF THE UNITED STATES AND CIRCUIT JUSTICE FOR THE
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT:
Pursuant to Rules 13.5, 22, and 30.3 of this Court, Applicants Industry
Intervenors1 respectfully request a 30-day extension of time—to and including
Thursday, March 19—within which to file a petition for a writ of certiorari to the
United States Court of Appeals for the Third Circuit. The court of appeals entered
its judgment on September 23, 2019. Its opinion, captioned Prometheus Radio Project
v. FCC, 939 F.3d 567 (3d. Cir. 2019), is attached as Exhibit A. The Third Circuit
denied Applicants’ petition for panel rehearing and rehearing en banc on November
20, 2019.

The order denying rehearing is unreported and a court-filed copy is

attached as Exhibit B. Unless extended, the deadline to file a petition for a writ of
certiorari is February 18, 2020. This application is timely filed. See S. Ct. Rule 30.2.
This Court’s jurisdiction will be invoked under 28 U.S.C. § 1254(1).
1.

This case presents important and recurring questions involving (1) the

interpretation of Section 202(h) of the Telecommunications Act of 1996, a statute
directing the FCC to review its rules restricting ownership of television stations, radio
stations, and newspapers every four years and to repeal or modify any regulation that
is no longer in the public interest “as the result of competition,” Pub. L. No. 104-104,
§ 202(h), 110 Stat. 56, 111–12 (1996); see Pub. L. No. 108-199, § 629, 118 Stat. 3, 99-

1

The Industry Intervenors are identified in the Corporate Disclosure Statement
appended to this Application.
1

100 (2004), and (2) the appropriate remedy under the Administrative Procedure Act
where, as here, a court of appeals identifies an isolated, supposed flaw in the agency’s
reasoning.
2.

This case arises from a series of FCC orders addressing media ownership

rules.2 In the Reconsideration Order, the FCC repealed or modified many of its
ownership rules after concluding that they no longer served the public interest. In
vacating the Reconsideration Order, the Third Circuit misinterpreted Section 202(h).
It replaced Congress’s command to focus on competition with non-statutory policy
considerations about media ownership diversity. This error, if left to stand, will
continue to prevent the FCC from making necessary changes to its media ownership
rules and will distort every future quadrennial review of those rules. The error is
compounded because the same panel has retained jurisdiction over the statutorily
mandated periodic review for more than 15 years—and continues to assert
jurisdiction—blocking any other court of appeals or any other panel of the Third
Circuit from considering the question and properly interpreting Section 202(h).
3.

This case involves an additional issue meriting this Court’s review. The

Third Circuit vacated multiple FCC orders based on a supposed flaw in one of those
orders, even though the court expressly acknowledged that the FCC could reach the

2

The three orders at issue in this case are printed in the FCC Record. See In re 2014
Quadrennial Regulatory Review, Second Report and Order, 31 FCC Rcd. 9864 (2016)
(“Second R&O”), In re 2014 Quadrennial Regulatory Review, Order on
Reconsideration and Notice of Proposed Rulemaking, 32 FCC Rcd. 9802 (2017)
(“Reconsideration Order”), and In re Rules & Policies to Promote New Entry and
Ownership Diversity in the Broadcasting Services, Report and Order, 33 FCC Rcd.
7911 (2018) (“Incubator Order”).
2

exact same conclusions after further consideration. The Third Circuit’s wholesale
vacatur conflicts with remedial approaches taken by seven other circuits, all of which
remand without vacatur where, as here, an agency could correct any flaws in its
reasoning while reaching the same ultimate result. See, e.g., Allied-Signal, Inc. v.
U.S. Nuclear Regulatory Comm’n, 988 F.2d 146, 150 (D.C. Cir. 1993). The overbroad
relief ordered by the Third Circuit was inconsistent with the supposed flaw the court
identified and poses serious implications for the effective and efficient use of
legislative, executive, and judicial resources.
4.

This case is ideal for resolving the questions that will be presented. The

same Third Circuit panel has reviewed the FCC’s efforts to comply with Section
202(h) four times over 15 years. See Ex. A; Prometheus Radio Project v. FCC, 824
F.3d 33 (3d Cir. 2016); Prometheus Radio Project v. FCC, 652 F.3d 431 (3d Cir. 2011);
Prometheus Radio Project v. FCC, 373 F.3d 372 (3d Cir. 2004). Judges Ambro and
Fuentes have consistently remanded the FCC’s decision for failing to promote
ownership diversity to their satisfaction, and Judge Scirica has consistently
dissented.

By continuing to retain jurisdiction, the panel has not only stymied

necessary regulatory reform, but has prevented any percolation on the proper
interpretation of Section 202(h).

The Third Circuit’s misinterpretation thus

continues to distort the FCC’s quadrennial review process and will continue to do so
unless corrected by this Court.
5.

A 30-day extension to file a petition for a writ of certiorari is necessary

to allow counsel for the Industry Intervenors to prepare and file a petition presenting
3

these important questions to this Court. In addition, counsel for Industry Intervenors
has conferred with counsel for the FCC and understands that the FCC will also be
filing a request for a 30-day extension of time to file a petition for certiorari. Judicial
efficiency counsels in favor of the FCC’s and Industry Intervenors’ petitions being
submitted to this Court and considered concurrently. Industry Intervenors are not
aware of any party that would be prejudiced by the requested extension.
Accordingly, good reason exists for this application and Industry Intervenors
respectfully request a 30-day extension of time within which to file a petition for a
writ of certiorari, to and including Thursday, March 19, 2020.
Dated: February 7, 2020
Eve Klindera Reed
Jeremy J. Broggi
WILEY REIN LLP
1776 K St., N.W.
Washington, D.C. 20036
(202) 719-7000
ereed@wileyrein.com
jbroggi@wileyrein.com
Counsel for Nexstar
Broadcasting, Inc.

Respectfully submitted,
Kevin F. King
Andrew Soukup
Rafael Reyneri
COVINGTON &
BURLING LLP
850 10th St., N.W.
Washington, D.C. 20001
(202) 662-6000
kking@cov.com
asoukup@cov.com
rreyneri@cov.com
Counsel for News Media
Alliance and Fox
Corporation

/s/ Helgi C. Walker
Helgi C. Walker
Counsel of Record
Jacob T. Spencer
GIBSON, DUNN & CRUTCHER LLP
1050 Connecticut Ave., N.W.
Washington, D.C. 20036
(202) 955-8500
hwalker@gibsondunn.com
jspencer@gibsondunn.com
Counsel for National Association
of Broadcasters

(additional counsel listed on next page)

4

David D. Oxenford
Wilkinson Barker Knauer, LLP
1800 M Street, N.W.
Suite 800N
Washington, D.C. 20036
(202) 783-4141
doxenford@wbklaw.com

Jeetander T. Dulani
Pillsbury Winthrop Shaw Pittman LLP
1200 17th St., N.W.
Washington, D.C. 20036
(202) 663-8000
jeetander.dulani@pillsburylaw.com

Counsel for Connoisseur Media LLC

Counsel for Sinclair Broadcast Group
Inc.

Kenneth E. Satten
Craig E. Gilmore
Wilkinson Barker Knauer, LLP
1800 M Street, N.W.
Suite 800N
Washington, D.C. 20036
(202) 783-4141
ksatten@wbklaw.com
cgilmore@wbklaw.com

Sally A. Buckman
Paul A. Cicelski
Lerman Senter PLLC
2001 L St., N.W.
Suite 400
Washington, D.C. 20036
(202) 429-8970
sbuckman@lermansenter.com
pcicelski@lermansenter.com

Counsel for Bonneville International
Corporation and The Scranton Times
L.P.

Counsel for News Corporation

5

RULE 29.6 CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6, Intervenors make the following disclosures.
Bonneville
corporation.

International

Corporation

is

a

privately

held

Utah

Bonneville’s sole shareholder is Deseret Management Corporation,

which, in turn, is privately held by the DMC Reserve Trust.

There are three

individual trustees, who are appointed by The First Presidency of The Church of
Jesus Christ of Latter-day Saints.
Connoisseur Media LLC is a limited liability company organized in the
State of Delaware. Connoisseur is owned by Connoisseur Media Holdings, LLC,
which is in turn controlled by CM Broadcast Management, LLC.
Fox Corporation owns and operates broadcasting stations and provides
programming to affiliate stations nationwide.

Fox Corporation has no parent

corporation and, to the best of its knowledge as of the date hereof, no publicly held
company has a ten percent or greater ownership interest in the company.
National Association of Broadcasters is a nonprofit, incorporated
association of radio and television stations and broadcast networks. It has no parent
company, and has not issued any shares or debt securities to the public; thus no
publicly held company owns ten percent or more of its stock.
News Corporation is a publicly held company comprising business across a
range of media, including news and information services, book publishing, and digital
real estate services.
Corporation’s stock.

No publicly held company owns 10% or more of News

News Media Alliance is a not-for-profit trade association representing nearly
2,000 companies engaged in all aspects of the news media industry in the United
States and Canada. Alliance members account for nearly 90 percent of the daily
newspaper circulation in the United States, as well as a range of online, mobile and
non-daily publications. The News Media Alliance was known as the Newspaper
Association of America until September 2016. The News Media Alliance has no
parent companies, and no publicly held company has a ten percent or greater
ownership interest in the News Media Alliance.
Nexstar Broadcasting, Inc. is a media corporation that owns and operates
commercial broadcast television stations. Nexstar is wholly owned by Nexstar Media
Group, Inc., which is a publicly held corporation. No publicly held corporation has a
ten percent or greater ownership interest in the stock of Nexstar Media Group, Inc.
The Scranton Times L.P. is controlled by its general partner, The Times
Partner, L.L.C., a Pennsylvania limited liability company, which is in turn privately
held and controlled by its four individual members.
Sinclair Broadcast Group Inc. is a media corporation that owns, operates,
and provides programming and sales services to television stations in various cities
across the country. Sinclair has no parent company and no publicly traded company
owns more than ten percent of Sinclair’s stock.

